                       U.S. Department of Agriculture

                          Office of Inspector General
                           Financial & IT Operations




             Audit Report

 National Information Technology Center
General Controls Review – Fiscal Year 2004




                              Report No. 88501-1-FM
                                    September 2004
Executive Summary
National Information Technology Center General Controls Review - Fiscal Year 2004

Results in Brief                  This report presents the results of our audit of the Office of the Chief
                                  Information      Officer/National    Information      Technology       Center’s
                                  (OCIO/NITC) internal control structure as of August 31, 2004. Our review
                                  was conducted in accordance with “Government Auditing Standards” issued
                                  by the Comptroller General of the United States including American Institute
                                  of Certified Public Accountants Professional Standards AU Sections 316,
                                  319, and 324 as amended by applicable statements on auditing standards.
                                  While the center has taken significant actions to mitigate the weaknesses we
                                  identified, the report contains a qualified opinion on the internal control
                                  structure because certain control policies and procedures were not suitably
                                  designed or had not yet been placed in operation at the time of our review.

                                  Our objectives were to perform testing necessary to express an opinion about
                                  (1) whether the control objectives and techniques in exhibit A for the U.S.
                                  Department of Agriculture’s OCIO/NITC present fairly, in all material
                                  respects, the aspects of the OCIO/NITC’s policies and procedures in place
                                  and operating effectiveness during the period October 1, 2003 through
                                  August 31, 2004, (2) whether this control structure of policies and procedures
                                  was suitably designed to provide reasonable assurance that the specified
                                  control objectives were complied with satisfactorily, and (3) the operating
                                  effectiveness of the specified control structure policies and procedures in
                                  achieving specified control objectives. In 2004, the U.S. Government
                                  Accountability Office (GAO) issued its report on internal controls testing
                                  within the Department.1 We conducted limited testing to determine the status
                                  of corrective action on issues identified in that report.

                                  Our audit disclosed that, except for the matters referred to below; the control
                                  objectives and techniques identified in exhibit A present fairly, in all material
                                  respects, the relevant aspects of OCIO/NITC. Also, in our opinion, except
                                  for the deficiencies described below, the policies and procedures, as
                                  described, are suitably designed to provide reasonable assurance that the
                                  remaining control objectives would be achieved if the described policies and
                                  procedures were complied with satisfactorily.

                                  While significant improvements have been made, OCIO/NITC was still not
                                  compliant with the requirements of Office of Management and Budget
                                  (OMB) Circular A-130 and other Federal security guidance. Specifically,
                                  OCIO/NITC had not (1) finalized contingency planning, (2) conducted risk
                                  assessments consistent with Federal requirements, (3) prepared security plans
                                  for each of its general support systems, (4) completed system certifications

1
    GAO-04-154, “Further Efforts Needed to Address Serious Weaknesses at USDA,” dated January 2004.
USDA/OIG-A/88501-1-FM                                                                                       Page i
                   and accreditations for each of its general support systems, and (5) maintained
                   a complete inventory of systems in its midrange environment. OCIO/NITC
                   plans to have many of these areas corrected by fiscal year end as part of its
                   certification and accreditation process, while others have been identified in its
                   Plans of Action and Milestones. OCIO/NITC officials informed us that
                   meeting the requirements of OMB Circular A-130 and National Institute of
                   Standards and Technology (NIST) security guidelines involves major efforts
                   and requires time and resources to comply thoroughly. However, until these
                   controls and documents are in place, OCIO/NITC cannot be assured of the
                   confidentiality, integrity, and availability of its computer resources.

                   OCIO/NITC had not ensured that all midrange server security settings were
                   configured in accordance with departmental and NIST guidelines. Further,
                   OCIO/NITC needed to improve management over the routers and firewalls in
                   its general support system. This occurred because OCIO/NITC had not
                   established a policy or implemented controls to require midrange systems and
                   general support systems to follow OCIO or NIST configuration guidance;
                   and OCIO/NITC security staff have not played a significant role in
                   establishing or monitoring security over midrange and general support
                   systems. As a result, data residing on these servers in the midrange
                   environment could be compromised.

                   OCIO/NITC has made significant improvements over logical access controls.
                   However, further actions are needed to ensure the confidentiality and
                   integrity of its Information Technology (IT) resources. Specifically,
                   OCIO/NITC had not completed implementation of procedures to ensure (1)
                   waivers were obtained for user accounts with non-expiring passwords, (2)
                   policies and procedures outlining monitoring of security logs were
                   implemented, (3) global system settings were fully documented, and (4)
                   controls from the internet were properly secured. While OCIO/NITC has
                   made significant progress to address these issues, not all of the necessary
                   controls were in place throughout the year to ensure the confidentiality and
                   integrity of its IT resources. Until stronger controls over access are in place,
                   OCIO/NITC resources are vulnerable to potential fraud and misuse,
                   inappropriate disclosure, and potential disruption.

                   OCIO/NITC has improved its system change management process.
                   However, we continued to find that approval, testing, and implementation
                   documentation was not always maintained. While this condition was more
                   prevalent in OCIO/NITC’s midrange system environment, improvements
                   over changes to its mainframe environment are still needed. Despite its own
                   policies to document approval, testing, and implementation, OCIO/NITC had
                   not established controls to ensure that the procedures were being properly
                   carried out. Without proper change management controls, OCIO/NITC’s
                   systems are at risk of processing irregularities that could occur, or security

USDA/OIG-A/88501-1-FM                                                                       Page ii
                   features that could be inadvertently, or deliberately omitted or rendered
                   inoperable.

                   We believe that the findings in this report, taken as a whole, constitute a
                   material weakness in the general control structure and should be reported in
                   OCIO/NITC’s Federal Manager’s Financial Information Act report.

Recommendation
In Brief           OCIO/NITC is in the process of implementing significant actions to correct
                   the weaknesses we identify in this report, based on prior Office of Inspector
                   General (OIG) recommendations. Therefore, we make no additional
                   recommendations on outstanding issues.          However, we have made
                   recommendations for OCIO/NITC to:

                   •    Establish a plan of action with specific milestone dates toward updating
                        its contingency plans to meet OMB requirements, and completing
                        business resumption plans and business impact analyses for all
                        components of OCIO/NITC’s network and midrange environments;

                   •    develop a strategic plan with specific milestone dates for establishing
                        policies and procedures to address the midrange security weaknesses we
                        identified, and increased security involvement in the midrange
                        environment;

                   •    develop a control to ensure that router and firewall configurations are
                        properly maintained, documented, and that backup configurations are
                        stored off-site;

                   •    establish a plan with milestone dates on when it plans to finalize its
                        documentation of global system settings and have those settings
                        documented in its security plan; and

                   •    establish controls to ensure that its change management process includes
                        adequate documentation of approval, testing and implementation.

Agency Response    OCIO generally agreed with the findings and recommendations in this report
                   and is in the process of developing corrective action plans and/or finalizing
                   corrective actions.




USDA/OIG-A/88501-1-FM                                                                   Page iii
Abbreviations Used in This Report


BCP            Business Continuity Plan
BIA            Business Impact Analysis
BR             Business Resumption
COOP           Continuity of Operations Plan
CS             Cyber Security (A division of the OCIO)
DM             Departmental Manual
DRP            Disaster Recovery Plan
FIPS           Federal Information Processing Standards
GAO            Government Accountability Office
GSS            General Support System
ICS            Incident Command Structure
ID             Identification (i.e., user accounts or user identification)
ISS            Infrastructure Support Services
IT             Information Technology
MOU            Memorandum of Understanding
NIST           National Institute of Standards and Technology
NITC           National Information Technology Center
OCIO           Office of the Chief Information Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
SP             Special Publication
USDA           U.S. Department of Agriculture




USDA/OIG-A/88501-1-FM                                                        Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Report of the Office of Inspector General ............................................................................................ 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Security Program Management and Compliance ...................................................... 3

        Finding 1             Further Actions are Needed toward Achieving Compliance with Federal
                              Regulations.............................................................................................................. 3
                                  Recommendation No. 1.................................................................................... 6
                                  Recommendation No. 2.................................................................................... 6
        Finding 2             Stronger Controls Over Management and Configuration of Midrange and
                              General Support Systems are Needed ..................................................................... 7
                                  Recommendation No. 3.................................................................................. 10
                                  Recommendation No. 4.................................................................................. 10
                                  Recommendation No. 5.................................................................................. 10
                                  Recommendation No. 6.................................................................................. 10

    Section 2. Mainframe Access Controls......................................................................................... 11

        Finding 3             Mainframe Access Controls Have Significantly Improved but Additional
                              Actions are Needed ............................................................................................... 11
                                  Recommendation No. 7.................................................................................. 13
                                  Recommendation No. 8.................................................................................. 13

    Section 3. System Change Controls ............................................................................................. 14

        Finding 4   Change Control Improvements Need to be Finalized and Implemented .............. 14
                        Recommendation No. 9.................................................................................. 15
Exhibit A – Office of Inspector General, Review of Selected Controls............................................ 16




USDA/OIG-A/88501-1-FM                                                                                                                          Page v
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                          Washington D.C. 20250



Report of the Office of Inspector General
To:    Scott Charbo
       Chief Information Officer
       Office of the Chief Information Officer

We have examined the control objectives and techniques identified in exhibit A for the U.S.
Department of Agriculture’s (USDA), Office of the Chief Information Officer/National Information
Technology Center (OCIO/NITC). Our examination included procedures to obtain reasonable
assurance about (1) whether the control objectives and techniques of the USDA’s OCIO/NITC present
fairly, in all material respects, the aspects of the OCIO/NITC’s policies and procedures in place and
operating effectiveness during the period October 1, 2003 through August 31, 2004, (2) whether the
control structure of policies and procedures was suitably designed to provide reasonable assurance that
the specified control objectives were complied with satisfactorily, and (3) the operating effectiveness
of the specified control structure policies and procedures in achieving specified control objectives.
The control objectives were specified by OCIO/NITC.

Our audit was conducted in accordance with “Government Auditing Standards” issued by the
Comptroller General of the United States and the standards issued by the American Institute of
Certified Public Accountants and included those procedures necessary in the circumstances to obtain a
reasonable basis for rendering our opinion.

Our review disclosed material internal control weaknesses. We found that the OCIO/NITC needs to
strengthen its logical access controls; establish controls to ensure system software changes are
approved, documented, and tested; ensure adequate security controls are in place over its midrange
environment; and ensure that it is in compliance with existing Federal security guidelines.

In our opinion, except for the matters referenced to in the previous paragraph, the control objectives
and techniques identified in exhibit A of this report present fairly, in all material respects, the relevant
aspects of OCIO/NITC. Also, in our opinion, except for the deficiencies referred to in the previous
paragraph, the policies and procedures, as described, are suitably designed to provide reasonable
assurance that the remaining control objectives would be achieved if the described policies and
procedures were complied with satisfactorily.

Also, in our opinion, except for matters discussed above, the policies and procedures that were tested,
as described in the exhibit, were operating with sufficient effectiveness to provide reasonable, but not
absolute, assurance that the control objectives specified were achieved during the period from
October 1, 2003 through August 31, 2004. The scope of our engagement did not include tests to
determine whether control objectives not listed in the exhibit were achieved; accordingly, we express
no opinion on achievement of control objectives not included in the exhibit.

USDA/OIG-A/88501-1-FM                                                                               Page 1
Findings and Recommendations
Section 1.   Security Program Management and Compliance

                     An entity-wide program for security planning is the foundation of a security
                     control structure and a reflection of senior management’s commitment to
                     addressing security risks. The program should establish a framework and
                     continuing cycle of activity for assessing risk, developing and implementing
                     effective security procedures, and monitoring the effectiveness of these
                     procedures. Without a well-designed program, security controls may be
                     inadequate; responsibilities may be unclear, misunderstood, and improperly
                     implemented; and, controls may be inconsistently applied.




Finding 1            Further Actions are Needed toward Achieving Compliance with
                     Federal Regulations

                     While significant improvements have been made, OCIO/NITC was still not
                     compliant with the requirements of Office of Management and Budget
                     (OMB) Circular A-130 and other Federal security guidance. Specifically,
                     OCIO/NITC had not (1) finalized contingency planning, (2) conducted risk
                     assessments consistent with Federal requirements, (3) prepared security plans
                     for each of its general support systems, (4) completed system certifications
                     and accreditations for each of its general support systems, and (5) maintained
                     a complete inventory of systems in its midrange environment. OCIO/NITC
                     plans to have many of these areas corrected by fiscal year end as part of its
                     certification and accreditation process, while others have been identified in its
                     Plans of Action and Milestones. OCIO/NITC officials informed us that
                     meeting the requirements of OMB Circular A-130 and National Institute of
                     Standards and Technology (NIST) security guidelines involve major efforts
                     and require time and resources to comply thoroughly. However, until these
                     controls and documents are in place, OCIO/NITC cannot be assured of the
                     confidentiality, integrity, and availability of its computer resources.

                     OMB Circular A-130 established a minimum set of controls for agencies’
                     automated information security programs, including preparing security plans
                     for major applications and general support systems, certifying to the security
                     of any systems that maintain sensitive data, and establishing contingency
                     plans and recovery procedures in the event of a disaster. OMB also requires
                     agencies to maintain an inventory of the agency’s major information systems.




USDA/OIG-A/88501-1-FM                                                                         Page 3
                                   Contingency/Disaster Recovery Plans (DRP)

                                   Based in part on the OIG’s prior recommendations, OCIO/NITC completed
                                   disaster recovery plans for its general support systems. Our review of those
                                   plans disclosed that additional documentation is needed to meet Federal and
                                   departmental guidelines.

                                   OMB Circular A-130, Appendix III, requires the development and
                                   maintenance of two types of contingency plans: (1) a continuity of support or
                                   contingency plan that addresses the recovery of major applications and
                                   support systems in the event of minor disruption, and (2) a disaster recovery
                                   plan, (DRP) which as its name implies, applies to major, usually catastrophic,
                                   events that deny access to the normal facility for an extended period.
                                   Further, NIST2 emphasizes the Business Impact Analysis (BIA) as a key step
                                   in the contingency planning process. The BIA enables the organization to
                                   fully characterize the system requirements, processes, and interdependencies
                                   and use this information to determine contingency requirements and priorities
                                   for both short-term and long-term contingencies. Results from the BIA
                                   should be appropriately incorporated into the analysis and strategy
                                   development efforts for the organization’s Continuity of Operations Plan
                                   (COOP), Business Continuity Plan, and Business Resumption Plan.

                                   OCIO/NITC has a COOP plan in place to address business continuity at the
                                   highest level of the organization in a widespread emergency affecting the
                                   metropolitan area. OCIO/NITC does not have continuity of support plans in
                                   place to 1) address short-term versus long-term contingencies of a localized
                                   nature and 2) address all of the various components of OCIO/NITC’s
                                   operations and how those components will be recovered in the event of a
                                   limited contingency, such as a service interruption, as required by OMB
                                   Circular A-130. Further, we found that OCIO/NITC had not performed a
                                   BIA before preparing its disaster recovery plan for its general support system.
                                   Finally, our review disclosed that the DRP for the Infrastructure Support
                                   System, Sun General Support System (GSS), and Windows GSS did not
                                   outline procedures for restoring operability of the target systems at an
                                   alternate site after an emergency. Instead, the plans focus on reloading the
                                   operating system in the event of system failure. Those plans do not address
                                   steps to take if the OCIO/NITC facility is no longer accessible because of an
                                   emergency.

                                   Without effective, operable plans for those systems, OCIO/NITC cannot be
                                   assured that it will be able to provide efficient automated processing services
                                   to support its customers.


2
    SP 800-34, “Contingency Planning Guide for IT Systems,” dated June 2002.
USDA/OIG-A/88501-1-FM                                                                                      Page 4
                                Risk Assessments

                                As part of the certification and accreditation efforts of OCIO/NITC, a
                                contractor was hired to perform risk assessments of OCIO/NITC’s GSS and
                                major applications. Risk assessments had been performed on four midrange
                                servers, the telecom components, the mainframe, and the Infrastructure
                                Support Services (ISS). Despite these efforts, we found that risk assessments
                                were performed without a BIA being performed first. According to CS-031,
                                Risk Assessment Methodology, the first step in characterizing an IT system is
                                to define the business case for the system. The business case defines the
                                system’s function and importance to the program and to USDA’s overall
                                mission. CS-031 also states that NIST SP 800-34 requires a BIA, which is
                                also roughly equivalent to a business case. This BIA will also aid in the
                                identification of the system’s data needed for the next step of the process.
                                According to NIST SP 800-34, the BIA helps to identify and prioritize
                                critical IT systems and components. The NIST guidance states the BIA
                                purpose is to correlate specific system components with the critical services
                                that they provide, and based on that information, characterize the
                                consequences of a disruption to the system components. Without the BIA
                                being performed first, NITC cannot be assured that all system components
                                and critical services provided by them were adequately identified, prioritized,
                                and included in the risk assessment.

                                Security Plans

                                During our prior audit,3 we reported that OCIO/NITC had not completed
                                security plans for its GSS, but had plans to complete them by September 30,
                                2003. Progress had been made during the year to finalize many of its security
                                plans; however, we found that security plans for its telecommunications
                                network including routers, firewalls, intrusion detection system, and
                                mainframe access software had not been completed. Until a security plan is
                                completed for this GSS, OCIO/NITC cannot be assured that it has adequately
                                addressed its security needs and that its security policies and practices have
                                become an integral part of its operations. OCIO/NITC officials informed us
                                that security plans have been prepared as part of its certification and
                                accreditation process, which will be completed by September 30, 2004.
                                Because OCIO/NITC has a corrective action plan in place to complete
                                security plans, we will make no recommendation concerning this issue.

                                System Certification and Accreditation

                                OCIO/NITC has not completed system certifications and accreditations for its
                                GSS. During fieldwork OCIO/NITC was in the process of completing these
                                certifications in accordance with the Department’s directives. NITC officials
3
 Audit Report No. 88099-05-FM, “National Information Technology Center General Controls Review - Fiscal Year 2003,” dated October
2003.
USDA/OIG-A/88501-1-FM                                                                                                        Page 5
                                 informed us that they intend to have their GSS certified and accredited by
                                 September 2004; therefore, we will make no recommendation concerning this
                                 issue.

                                 Inventory

                                 Homeland Security Presidential Directive 7, Critical Infrastructure
                                 Identification, Prioritization, and Protection, dated December 17, 2003
                                 requires all federal departments and agencies to identify, prioritize, and
                                 protect their internal critical infrastructure and key resources. Consistent
                                 with the Federal Information Security Management Act of 2002, agencies are
                                 to identify and provide information security protections commensurate with
                                 the risk and magnitude of the harm resulting from the unauthorized access,
                                 use, disclosure, disruption, modification, or destruction of information.

                                 During our review, we found that OCIO/NITC did not have an accurate
                                 inventory of its midrange environment that included such vital information as
                                 system name, owner/manager of the system, operating platform and IP
                                 address.

                                 According to NIST,4 when assessing risks for an IT system, the first step is to
                                 define the scope of the effort. In this step, the boundaries of the IT system
                                 are identified, along with the resources and the information that constitute the
                                 system. Characterizing an IT system establishes the scope of the risk
                                 assessment effort, delineates the operational authorization boundaries, and
                                 provides information such as hardware, software, system connectivity, and
                                 responsible division or support personnel that is essential to defining the risk.

                                 Without an accurate inventory, OCIO/NITC cannot be assured that all
                                 systems have been identified, risks on those systems have been assessed, and
                                 security controls have been established over those systems.

Recommendation No. 1

                                 OCIO/NITC should establish a plan of action with specific milestone dates
                                 toward updating its contingency plans to meet OMB requirements, and
                                 completing business resumption plans and business impact analyses for all
                                 components of OCIO/NITC’s network and midrange environments.

Recommendation No. 2

                                 OCIO/NITC should implement controls to ensure that an inventory of
                                 OCIO/NITC’s midrange environment is maintained, including essential
                                 information such as system name, owner/manager of the system, operating
                                 platform and IP address.

4
    SP800-30, Risk Management Guide for Information Technology Systems
USDA/OIG-A/88501-1-FM                                                                                     Page 6
Finding 2                         Stronger Controls Over Management and Configuration of
                                  Midrange and General Support Systems are Needed

                                  OCIO/NITC had not ensured that all midrange server security settings were
                                  configured in accordance with departmental and NIST guidelines. Further,
                                  OCIO/NITC needed to improve management over the routers and firewalls in
                                  its GSS. This occurred because OCIO/NITC had not (1) established a policy
                                  or implemented controls to require midrange systems and GSS to follow
                                  OCIO or NIST configuration guidance, (2) finalized policies or standard
                                  operating procedures for the midrange environment, and (3) ensured that
                                  security staff played a significant role in establishing or monitoring security
                                  over midrange and GSS. Further, OCIO/NITC assigned control over
                                  administration and security to the systems administrators of the midrange
                                  environment. As a result, data residing on these servers, as well as other
                                  servers in the midrange environment were at risk of compromise.

                                  Configuration management is essential in ensuring that system settings are
                                  documented and configured in the best interest of performance and security
                                  while ensuring that changes to systems are approved and do not inadvertently
                                  affect the system security. Departmental5 and NIST6 guidance require that
                                  agencies have formal configuration management processes in place. Further,
                                  the Department and NIST have issued configuration checklists that should be
                                  used by agencies to ensure proper security configurations are used. Finally,
                                  OCIO/NITC has issued its own policies7 for identifying unused user accounts
                                  on all its systems, and for limiting access to only those systems and data
                                  necessary to perform their job duties.

                                  Midrange Configuration Management

                                  Our evaluation of OCIO/NITC’s midrange8 environment included detailed
                                  security reviews of 2 servers owned and managed by OCIO/NITC. Our
                                  review disclosed that system administrators had not configured midrange
                                  server security in accordance with departmental and NIST guidance.
                                  Specifically, we found:


5
  Cyber Security guidance CS-009, “Interim Guidance on USDA Configuration Management,” dated October 15, 2001.
6
  NIST SP 800-12, “An Introduction to Computer Security,” dated October 1995; and SP 800-43, “Guidance for Security Windows 2000,”
dated November 2002.
7
  OCIO/NITC Security Directive SD 1-5, “Least Privilege Policy,” dated March 26, 2003; Security Directive SD 5-1, “Inactive Accounts,” dated
March 12, 2003.
8
  Midrange is defined as a server system running a multi-user operating system with less computing power than a mainframe system, but
more computing power than an end-user system. Typically, these include Windows server-class operating systems, Unix servers from
various vendors, and IBM AS400 servers.
USDA/OIG-A/88501-1-FM                                                                                                             Page 7
                        •   Password security settings, such as password expiration and length,
                            and access permissions did not always meet departmental and NIST
                            guidelines;
                        •   system users included generic accounts, guest accounts, and other
                            accounts unidentifiable to employee lists;
                        •   administrator and user rights did not always meet departmental and
                            NIST guidelines;
                        •   access Authorization did not exist for OCIO/NITC staff on midrange
                            systems, and no periodic reconciliation was performed of user IDs on
                            the midrange systems;
                        •   excessive access rights were granted to directories and files;
                        •   windows registry keys were not always configured in accordance to
                            departmental and NIST guidelines;
                        •   network services running were not configured to departmental and
                            NIST guidelines; and
                        •   current vendor-supplied patches had not been installed on the
                            systems.

                   OCIO/NITC officials acknowledged the weaknesses on its servers under their
                   management control and began implementing corrective actions.

                   Since security vulnerabilities on one midrange server have the potential to
                   affect other midrange servers in its environment, we selected four additional
                   servers to review. Our review included 2 servers owned by agencies, but
                   partially managed by OCIO/NITC, and 2 servers owned and managed by the
                   agencies. We found similar issues on these 4 servers and communicated
                   those weaknesses to the appropriate agency managers, who began to take
                   corrective actions.

                   OIG recognizes that OCIO/NITC exercises different levels of management
                   responsibility over its midrange environment.             For some systems,
                   OCIO/NITC simply maintains physical security at its facilities, while others
                   are managed entirely by OCIO/NITC staff. OIG also recognizes that it is
                   ultimately the responsibility of the owner agency to ensure its systems are
                   properly secure and in compliance with departmental and Federal security
                   guidelines. However, OCIO/NITC needs to work with its customer agencies
                   to ensure a balance between its role as a service provider and its
                   responsibility to all of its customers to provide a secure operating
                   environment and network. OCIO/NITC had issued security directive SD 1-3,
                   “Requirements for Approval of System Operation,” dated March 2003, which
                   requires the owner agencies to provide written approval to operate (also
                   called accreditation), for every system in OCIO/NITC’s environment. The
                   Department initiated its certification and accreditation effort during this fiscal
                   year to address a long-standing material weakness in that the Department and
                   its agencies had not been accrediting its systems in accordance with OMB

USDA/OIG-A/88501-1-FM                                                                        Page 8
                                Circular A-130. Most agencies will not have authorizations to operate until
                                the end of the fiscal year; therefore, OCIO/NITC has been unable to enforce
                                its policy. OCIO/NITC needs to ensure that it obtains these authorizations to
                                operate as they become available for current systems, and that these
                                authorizations are obtained for future systems that enter its environment.

                                General Support System Configuration

                                Routers and firewalls are significant components of OCIO/NITC’s GSS.
                                These components ensure that only authorized access is obtained from the
                                departmental intranet and global Internet. OCIO/NITC has maintained its
                                routers and firewalls adequately; however, improvements could be made to
                                strengthen the configuration of these devices. Specifically, we found that:

                                     •   Changes to routers did not follow OCIO/NITC’s change control
                                         process (see Finding No. 4);
                                     •   routers were not configured to completely log all successful and
                                         unsuccessful access attempts;
                                     •   one router had an excessive number of virtual terminals configured;
                                     •   firewall rules implemented before OCIO/NITC established its
                                         configuration management policy were not thoroughly documented;
                                     •   access authorization to firewalls was not documented;
                                     •   OCIO/NITC had not obtained waivers, in accordance with
                                         Department policy,9 for the use of certain non-secure protocols
                                         though its firewalls; and
                                     •   backup of firewall configurations were not being maintained off-site.

                                OCIO/NITC personnel responsible for configuration of the routers and
                                firewalls concurred with our observations and have begun to take corrective
                                actions.


                                Midrange Monitoring and Security Oversight

                                OCIO/NITC does not have policies and procedures in place to ensure that the
                                security staff monitors midrange systems. As noted above, we observed
                                midrange systems that had not been configured to log security events. In
                                cases where logging was activated, system administrators, not security staff,
                                monitored the logs. For proper segregation of duties and effective security
                                management, OCIO/NITC needs to establish policies and controls to ensure
                                that midrange security logging is enabled and that security staff monitor those
                                logs.


9
 OCIO Cyber Security CS-012, “Cyber Security Guidance Regarding Gateway and Firewall Technical Security Standards,” dated
January 22, 2002.
USDA/OIG-A/88501-1-FM                                                                                                       Page 9
                                   Vulnerability Scanning

                                   OCIO/NITC had not been conducting thorough vulnerability scanning on all
                                   its routers. Further, while OCIO/NITC had conducted vulnerability scans on
                                   its midrange system networks, OCIO/NITC officials only recently
                                   implemented a control to notify agency Chief Information Officers when
                                   vulnerabilities were not timely corrected. In fiscal year 2001, the Department
                                   purchased a license to a commercial off-the-shelf software package that
                                   identified vulnerabilities in operating systems that use Transmission Control
                                   Protocol/Internet Protocol (TCP/IP). The Department implemented a policy
                                   that required the use of this software to scan all systems at least monthly.10
                                   This policy also requires all agencies to maintain a complete inventory of all
                                   its networks and systems. Based in part on our audits, OCIO/NITC began
                                   scanning all midrange systems for its customers; however our current review
                                   disclosed that OCIO/NITC had not been scanning its routers, which can also
                                   be subject to TCP/IP vulnerabilities.

Recommendation No. 3

                                   OCIO/NITC should develop a strategic plan with specific milestone dates for
                                   establishing policies and procedures to address the midrange security
                                   weaknesses we identified, and increased security involvement in the
                                   midrange environment.

Recommendation No. 4

                                   OCIO/NITC should develop a control to ensure that it obtains authorization
                                   to operate from system owner agencies for all systems in its operating
                                   environment.

Recommendation No. 5

                                   OCIO/NITC should develop a control to ensure that router and firewall
                                   configurations are properly maintained, documented, and that backup
                                   configurations are stored off-site.

Recommendation No. 6

                                   OCIO/NITC should develop a control to ensure it conducts thorough
                                   vulnerability scanning of its routers.




10
     OCIO Cyber Security, CS-007, “Security Vulnerability Scan Procedures,” issued September 2001.
USDA/OIG-A/88501-1-FM                                                                                   Page 10
Section 2. Mainframe Access Controls




Finding 3                       Mainframe Access Controls Have Significantly Improved but
                                Additional Actions are Needed

                                OCIO/NITC has made significant improvements over logical access controls
                                in its mainframe environment; however, further actions are needed to ensure
                                the confidentiality and integrity of its IT resources.             Specifically,
                                OCIO/NITC had not completed implementation of procedures to ensure (1)
                                waivers were obtained for user accounts with non-expiring passwords, (2)
                                policies and procedures outlining monitoring of security logs were
                                implemented, (3) global system settings were fully documented, and (4)
                                access from the Internet were properly secured. While OCIO/NITC has
                                made significant progress to address these issues as discussed below, not all
                                of the necessary controls were in place throughout the year to ensure the
                                confidentiality and integrity of its IT resources. Until stronger controls over
                                access are in place, OCIO/NITC resources are vulnerable to potential fraud
                                and misuse, inappropriate disclosure, and potential disruption.

                                OMB11 stresses the need for management controls affecting users of IT to
                                protect the integrity, availability, and confidentiality of information by
                                restricting access to only authorized users. OMB also stresses that individual
                                accountability is normally accomplished by identifying and authenticating
                                users of the system and subsequently tracing actions on the system to the user
                                who initiated them. Both OMB and NIST12 stress the need for agencies to
                                implement the “least privilege” concept, granting users only those accesses
                                required to perform their duties. Departmental Manual (DM)13 requires
                                security staff to remove employee user identifications (ID) and passwords
                                when the employee is no longer with the agency.

                                User Accounts

                                We continue to find an excessive number of user IDs that have non-expiring
                                passwords. As reported last year, one agency is responsible for a majority of
                                these user IDs. As of the end of our fieldwork, OCIO/NITC had not obtained
                                the waiver from agency management documenting why these IDs needed
                                passwords that did not expire. OCIO/NITC has begun to obtain waivers for
                                newly created IDs with non-expiring passwords; however our test sample of
                                14 newly created IDs found that OCIO/NITC did not have waivers for 3 of

11
   OMB Circular A-130, Appendix III, Section A, November 30, 2000.
12
   NIST Special Publication 800-18, “Guide for Developing Security Plans for Information Technology Systems,” dated December 1998.
13
   DM 3140-1.6, part 6 of 8, Section 6c, “Management ADP Security Manual,” July 19, 1984.
USDA/OIG-A/88501-1-FM                                                                                                   Page 11
                                  them. OCIO/NITC needs to implement an effective process for obtaining
                                  and maintaining these waivers.

                                  Security Software Global System Settings

                                  Based on our prior audit recommendations, OCIO/NITC has begun, but has
                                  not completed, its review and documentation of its security software’s global
                                  system settings. Global system settings define how the network-wide
                                  security software operates within the mainframe environment, such as
                                  resource access control settings, user activity logs for IDs with special
                                  privileges, and logs of profile changes. While there are no ‘required’ global
                                  system settings, manufacturer and industry standard settings should be used
                                  to facilitate the most effective and secure computing environment. At a
                                  minimum, OCIO/NITC should document its global system settings and
                                  justify those settings when they do not conform to manufacturer or industry
                                  standard suggestions. Deviation from these standards may be appropriate
                                  since each operating environment is unique; however, without adequate
                                  documentation it is impossible to validate whether global system parameters
                                  are adequately configured and tested to maintain the integrity of the security
                                  software.

                                  Monitoring Access

                                  OCIO/NITC is still in the process of establishing written policies and
                                  procedures outlining what (1) logs/reports will be reviewed, (2) actions will
                                  be taken for different security violations, (3) security violations will be
                                  investigated, or (4) supporting documentation will be created and maintained
                                  supporting any investigations. In part due to a recommendation made in last
                                  year’s report, OCIO/NITC is in the process of developing system security log
                                  review standards.       Until these standards have been finalized and
                                  implemented, OCIO/NITC management cannot be assured that security
                                  violations are properly and consistently identified, and that followup is
                                  adequately carried out. Because OCIO/NITC is in the process of completing
                                  corrective action, we will not make additional recommendations on this issue.

                                  System audit logs would provide management with valuable information
                                  about activity on its computer systems, including a review and analysis of
                                  management, operational, and technical controls. OMB14 states that
                                  identifying and authenticating system users, and subsequently tracing actions
                                  on the system to the users who initiated them normally accomplishes
                                  accountability. In addition, DM 3140-1.315 requires maintaining access logs
                                  sufficient to permit reconstruction of events in case of unauthorized data or
                                  program access or use. Security/access control software should be used to

14
     OMB Circular A-130, Appendix III, Section B (a)(2)(c), November 30, 2000.
15
     DM 3140-1.3, “Management ADP Security Manual,” Part 3 of 8, Section 16, July 19, 1984.
USDA/OIG-A/88501-1-FM                                                                                  Page 12
                   maintain an audit trail of security accesses to determine how, when, and by
                   whom specific actions were taken. Such information is critical in monitoring
                   compliance with security policies and when investigating security incidents.

                   Because the audit trail information is likely to be too voluminous to review
                   on a routine basis, procedures should be implemented to selectively identify
                   unauthorized, unusual, and sensitive access activity. It is important that an
                   entity have formal written procedures for reporting security violations or
                   suspected violations to a central security management office so that multiple
                   related incidents can be identified, others can be alerted to potential threats,
                   and appropriate investigations can be performed. Without prompt and
                   appropriate responses to security incidents, violations could continue to occur
                   and cause damage to an entity’s resources indefinitely. Further, violators will
                   not be discouraged from continuing inappropriate access activity, which
                   could result in financial losses and disclosure of confidential information.
                   Because OCIO/NITC is in the process of addressing our prior
                   recommendation, we make no further recommendation in this report.

                   Mainframe Access From the Internet

                   OCIO/NITC is still in the process of working with its customers to encrypt all
                   access to its mainframe, a process that began in September 2003 and was
                   originally scheduled to be completed by January 2004. According to
                   OCIO/NITC officials, this was the final step toward securing access to
                   OCIO/NITC network resources from the Internet. OCIO/NITC customers
                   need to implement changes on their networks before this process can be
                   finalized. Until this process is complete, we consider this to be a material
                   internal control weakness that OCIO/NITC needs to address.           Because
                   OCIO/NITC is in the process of addressing our prior recommendation, we
                   are making no further recommendations on this issue in this report.


Recommendation No. 7

                   OCIO/NITC should develop controls to ensure that waivers are obtained and
                   maintained for all accounts that have non-expiring passwords.


Recommendation No. 8

                   OCIO/NITC should establish a plan with milestone dates on when it plans to
                   finalize its documentation of global system settings and have those settings
                   documented in its security plan.




USDA/OIG-A/88501-1-FM                                                                     Page 13
Section 3.           System Change Controls




Finding 4                          Change Control Improvements Need to be Finalized and
                                   Implemented

                                   OCIO/NITC continues to improve its system change management process.
                                   However, we continued to find that approval, testing, and implementation
                                   documentation was not always maintained. While this condition was more
                                   prevalent in OCIO/NITC’s midrange system environment, improvements
                                   over changes to its mainframe environment are still needed. Despite its own
                                   policies to document approval, testing, and implementation, OCIO/NITC had
                                   not documented what changes had been approved, or established controls to
                                   ensure that change control procedures were being properly carried out.
                                   Without proper change management controls, OCIO/NITC’s systems are at
                                   risk of processing irregularities that could occur or security features that
                                   could be inadvertently or deliberately omitted or rendered inoperable.

                                   OCIO/NITC has formalized change control policies16 in place that govern the
                                   request, approval, testing, and implementation phases of the change control
                                   process. According to NIST,17 it is important to document the proposed or
                                   actual changes to the information system and to subsequently determine the
                                   impact of those proposed or actual changes on the security of the system.
                                   Information systems will typically be in a constant state of migration with
                                   upgrades to hardware, software, or firmware and possible modifications to
                                   the surrounding environment where the system resides. Changes to an
                                   information system can have a significant impact on the security of the
                                   system. Documenting information system changes and assessing the
                                   potential impact on the security of the system on an ongoing basis is an
                                   essential aspect of maintaining the security accreditation. Ensuring adequate
                                   consideration of the potential security impacts due to specific changes to an
                                   information system or its surrounding environment requires an effective
                                   agency configuration management and control policy and associated
                                   procedures.

                                   In our two prior years’ audits, we found that new system software versions or
                                   modifications to existing software were not properly authorized, tested, or
                                   logged. While most of the discrepancies in this year’s audit were found in
                                   the OCIO/NITC’s midrange system environment, we noted instances where
                                   changes were made in the mainframe environment that had not been properly
                                   approved. Below are a few of the discrepancies we identified in the
                                   mainframe and midrange platforms:

16
     OCIO/NITC “Change Management Handbook,” dated August 19, 2003.
17
     NIST SP 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems,” dated May 2004.
USDA/OIG-A/88501-1-FM                                                                                                           Page 14
                   Mainframe

                        •   Changes recorded in OCIO/NITC’s management information system
                            had been implemented without evidence that the change was
                            approved.

                        •   While OCIO/NITC officials informed us that testing of approved
                            changes had been done before implementing them into production,
                            OCIO/NITC had not maintained documentation showing the testing
                            had been completed.

                   Midrange

                        •   OCIO/NITC personnel were not following formalized change control
                            procedures for OCIO/NITC managed midrange servers.

                        •   OCIO/NITC had not always documented contact with agency-owners
                            when making changes to systems managed by OCIO/NITC.

                        •   Emergency changes were not always authorized or approved as
                            required by OCIO/NITC policy.

                        •   Documentation that testing of changes occurred was not always
                            maintained.

                   During last year’s audit, OCIO/NITC began to address the system software
                   change control issues at the close of our prior audit by revising its directives
                   related to change management and reengineering the change control process.
                   OCIO/NITC recently conducted its own internal review of the accuracy of its
                   change control database to ensure that it accurately reflected approved and
                   implemented changes. Further, OCIO/NITC modified its database by adding
                   an automated control that would not allow a change record to be closed
                   without first being coded as approved. Despite these actions, however,
                   OCIO/NITC needs to make a concerted effort to continue making
                   improvements to implement sound change control practices.

Recommendation No. 9

                   OCIO/NITC needs to establish controls to ensure its change management
                   process includes adequate documentation of approval, testing and
                   implementation.




USDA/OIG-A/88501-1-FM                                                                     Page 15
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                     Exhibit A – Page 1 of 10

The objectives of our examination were to perform testing necessary to express an opinion about (1)
whether the control objectives and techniques identified in this exhibit present fairly, in all material
respects, the aspects of the OCIO/NITC’s policies and procedures in place for the period October 1,
2003 through August 31, 2004, (2) whether the control structure of policies and procedures was
suitably designed to provide reasonable assurance that the specified control objectives were complied
with satisfactorily, and (3) the operating effectiveness of the specified control structure policies and
procedures in achieving specified control objectives.

This report is intended to provide users of OCIO/NITC with information about the control structure
policies and procedures at OCIO/NITC that may affect the processing of user organizations’
transactions and also to provide users with information about the operating effectiveness of the policies
and procedures that were tested. This report, when combined with an understanding and assessment of
the internal control structure policies and procedures at user organizations, is intended to assist user
auditors in (1) planning the audit of user organizations’ financial statements, and (2) in assessing
control risk for assertions in user organizations’ financial statements that may be affected by policies
and procedures at OCIO/NITC.

Our testing of OCIO/NITC’s control structure policies and procedures was restricted to the control
objectives and the related policies and procedures listed in the matrices in this exhibit. Our testing was
not intended to apply to any other procedures described in OCIO/NITC’s Service Center Description
and Internal Controls Framework, that were not included in the aforementioned matrices or to
procedures that may be in effect at user organizations.

Our review was performed through inquiry of key OCIO/NITC personnel, observation of activities,
examination of relevant documentation and procedures, and tests of controls. We also followed up on
known control weaknesses identified in prior OIG audits. We performed such tests as we considered
necessary to evaluate whether the operating and control procedures described by OCIO/NITC and the
extent of compliance with them are sufficient to provide reasonable, but not absolute, assurance that
control objectives are achieved.

The description of the tests of operating effectiveness and the results of those tests are included in the
following section of this report.




USDA/OIG-A/88501-1-FM                                                                              Page 16
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                         Exhibit A – Page 2 of 10
     CONTROL                        CONTROL
     OBJECTIVE                     TECHNIQUES                      TESTS PERFORMED                        CONCLUSION
1.   Define and             a.   The OCIO/NITC relies on         We reviewed OCIO/NITC              The control structure policies
     communicate                 Department policy, in most      policies and procedures,           and procedures on the whole
     OCIO/NITC                   matters, and provides hard      internal Administrative            were suitably designed to
     organizational              copy and electronic access.     Directives, Security Directives,   achieve the control objective
     structure, policies,   b.   When Department policy          and policies and procedures to     specified, but were not
     and procedures.             does not provide adequate       ensure:                            operating effectively.
                                 guidance on administrative      1) Departmental policies had
                                 issues, OCIO/NITC issues             been taken into account       We noted problem/change
                                 internal Administrative         2) They are revised, updated,      management directives were
                                 Directives, which define             and changed when              not being followed (See
                                 administrative policies and          necessary.                    Finding 4.)
                                 procedures.                     3) They were documented
                            c.   Policy manuals, procedure            and appropriate.              Vulnerability scan procedures
                                 manuals, and Administrative                                        were not being followed
                                 Directives are made             We reviewed the organization       (Finding 2.)
                                 available in electronic and     structure, and responsibilities
                                 hard copy form, and are used    of the OCIO/NITC divisions to      We identified 6 security
                                 by personnel.                   ensure they were documented        directives that had not been
                            d.   The OCIO/NITC                   and appropriate.                   finalized, as well as numerous
                                 organizational structure and                                       Standard Operating Procedures
                                 the responsibilities of the                                        (SOPs) for the midrange
                                 OCIO/NITC divisions are                                            environment that had not been
                                 well documented and                                                finalized. (See Finding 2.)
                                 understood.
                            e.   Division responsibilities,                                         We found the organizational
                                 services, and procedures are                                       structure policies and
                                 documented.                                                        procedures were not suitably
                            f.   Adequate supervisory and                                           designed to achieve the control
                                 approval levels exist in each                                      objective specified because
                                 OCIO/NITC functional area.                                         responsibilities for the
                                                                                                    midrange environment were
                                                                                                    not clearly defined, nor
                                                                                                    adequately documented, and
                                                                                                    OCIO/NITC security staff did
                                                                                                    not provide oversight of the
                                                                                                    midrange environment.
                                                                                                    (Finding 2.)




USDA/OIG-A/88501-1-FM                                                                                                           Page 17
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                     Exhibit A – Page 3 of 10
     CONTROL                      CONTROL
     OBJECTIVE                   TECHNIQUES                      TESTS PERFORMED                      CONCLUSION
2.   Segregate duties    a.   The OCIO/NITC is not             We reviewed NITC level of        The control structure policies
     between the              responsible for Agency user      service for various              and procedures were not
     specialized staff        operations or user,              servers/customers.               suitably designed to achieve the
     as much as               application, or data controls.                                    control objective specified and
     practical.          b.   The responsibilities of the      We tested duties performed by    controls were not operating
                              OCIO/NITC staff and of the       NITC system administrators on    effectively.
                              users of OCIO/NITC               both NITC owned and
                              services are clearly             customer systems.                We found:
                              differentiated.                                                   OCIO/NITC did not have an
                         c.   Separate duties are defined      We reviewed SOPs and             inventory of servers in their
                              for the various technical        directives for policy and        midrange environment nor
                              specialties.                     procedures related to            clear identification for
                         d.   OCIO/NITC personnel are          assignment of duties to NITC     ownership and management of
                              prohibited from originating,     personnel.                       those servers. (See Finding 1.)
                              changing, or correcting user
                              input or data, unless so         We reviewed changes to           NITC security staff did not
                              requested.                       agency systems performed by      provide oversight of the
                         e.   Separation of duty is            NITC personnel.                  midrange environment.
                              enforced through access                                           Instead, personnel
                              rules within the security        We reviewed access to critical   administering the systems were
                              software whenever practical      operating system software data   also responsible for oversight.
                              and consistent with user         sets and compared settings to    (See Finding 2.)
                              requirements.                    best practice standards.
                                                                                                Changes were made to
                                                               We reviewed user IDs with        customers’ system software
                                                               special access privileges.       without evidence of customer
                                                                                                approval. (See Finding 4.)
                                                               We reviewed system settings
                                                               and user rights on selected      OCIO/NITC should develop
                                                               midrange environment servers.    and implement controls
                                                                                                associated with the
                                                                                                configuration of access rules
                                                                                                and the lack of efficient user
                                                                                                grouping to prevent the
                                                                                                assignment of unintended user
                                                                                                access privileges. (See Finding
                                                                                                2.)

                                                                                                Appropriate access permissions
                                                                                                were not assigned on NITC-
                                                                                                managed servers to protect
                                                                                                critical system files and
                                                                                                directories, including the root
                                                                                                directory. (See Finding 2.)




USDA/OIG-A/88501-1-FM                                                                                                       Page 18
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                      Exhibit A – Page 4 of 10
     CONTROL                       CONTROL
     OBJECTIVE                    TECHNIQUES                     TESTS PERFORMED                       CONCLUSION
3.   Apply appropriate    a.   OCIO/NITC management            We reviewed policies and          The control structure policies
     controls to the           and contracting agency          procedures to ensure that         and procedures were not
     system                    development involvement is      departmental policies were        suitably designed to achieve the
     development               required prior to the design,   considered. We reviewed           control objective specified.
     lifecycle.                development, testing, and       internal Administrative
                               conversion of new or            Directives and policies and       No controls exist to require
                               modified application            procedures to ensure that they    security staff oversight of the
                               systems.                        are revised, updated, and         midrange environment. (See
                          b.   The modification or             changed when necessary and        Finding 2.)
                               installation of systems         were properly implemented.
                               software requires the                                             Security patches/fixes were not
                               approval of OCIO/NITC           We reviewed software change       being applied to the Midrange
                               management.                     control procedures to determine   servers as needed. (See Finding
                          c.   The installation/modification   if software changes received      2.)
                               of midrange server operating    documented authorization,
                               systems hardware and            review, and approval before       Change management controls
                               software. Monitor security      implementation.                   were not operating effectively.
                               via COTS SW. Research                                             (See Finding 4.)
                               security patches, fixes and     We reviewed system
                               virus alerts.                   configurations in the midrange
                                                               environment

                                                               We reviewed software changes
                                                               to determine if testing is
                                                               performed before changes are
                                                               made to the systems.
4.   Provide              a.   Test results are documented     We reviewed policies and          The control structure policies
     reasonable                and approved by the             procedures to ensure that         and procedures were suitably
     assurance that            contracting customer before     departmental policies were        designed to achieve the control
     new or modified           acceptance of a new system.     considered. We reviewed           objective specified. However,
     applications         b.   Customers are involved in       internal Administrative           change management controls
     systems and data          preparing the test data.        Directives and policies and       were not operating effectively.
     files are properly   c.   As applicable, testing is       procedures to ensure that they    (See Finding 4.)
     converted and             performed on all interrelated   are revised, updated, and
     implemented.              systems to evaluate the         changed when necessary and
                               integrity of those systems.     were properly implemented.

                                                               We reviewed software changes
                                                               to determine if testing is
                                                               performed before changes are
                                                               made to the systems.




USDA/OIG-A/88501-1-FM                                                                                                         Page 19
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                          Exhibit A – Page 5 of 10
     CONTROL                       CONTROL
     OBJECTIVE                    TECHNIQUES                        TESTS PERFORMED                        CONCLUSION
5.   Provide              a.   Authorization and approval         We reviewed software change        The control structure policies
     reasonable                is required before                 policies to determine if           and procedures were not
     assurance that all        modifications are made to          adequate controls existed over     suitably designed to achieve the
     software changes          the network, midrange              modifications to the network,      control objective specified
     are appropriately         server, OA/LAN and                 midrange servers and               because controls did not exist
     reviewed and              mainframe operating systems        mainframe operating systems.       to ensure written
     authorized.               or software applications.                                             documentation existed to
                          b.   Operational personnel are          We reviewed INFOMAN                support changes approved by
                               not involved in changes to         (OCIO/NITC’s Management            the Change Configuration
                               the operating system               Information System) records to     Board.
                               (mainframe or midrange             determine if software changes
                               server) or user applications.      were documented and approved       Approval was not always
                          c.   There is thorough                  before modification.               obtained before software
                               supervision and review of all                                         modifications were performed.
                               changes.                           We reviewed change/problem         (See Finding 4.)
                          d.   Problems and change                records in MIRT
                               requests to the operating          (OCIO/NITC’s Midrange              Emergency changes were not
                               system and software                Installation Review Team           always authorized or approved
                               controlled by the                  System) and INFOMAN to             as required by OCIO/NITC
                               OCIO/NITC are tracked              ensure all changes are tracked     policies. (See Finding 4.)
                               using manual and automated         and provide an audit trail of
                               systems that provides an           changes.                           Testing of changes was not
                               audit trail of system changes.                                        always performed before being
                          e.   Operating systems and              We reviewed change records to      put into the production
                               systems software changes           determine if changes were          environment. (See Finding 4.)
                               are tested to ensure that they     tested before being added to the
                               operate properly and provide       production environment.            Not all changes were recorded
                               necessary functionality.                                              into INFOMAN. (See Finding
                          f.   Modified or new software is                                           4.)
                               not installed until installation
                               plans have been reviewed by
                               the respective Branch Chiefs
                               and approved by the Change
                               Management Review Team.




USDA/OIG-A/88501-1-FM                                                                                                            Page 20
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                        Exhibit A – Page 6 of 10
     CONTROL                        CONTROL
     OBJECTIVE                     TECHNIQUES                      TESTS PERFORMED                       CONCLUSION
6.   Conduct the           a.   Document current                 We reviewed OCIO/NITC’s           The control structure policies
     planning activities        OCIO/NITC controls, and          internal controls framework       and procedures were not
     needed to provide          identify required new            and evaluated various plans       suitably designed to achieve the
     reasonable                 controls.                        such as OCIO/NITC’s Security      control objective specified
     assurance that the    b.   To the degree possible, plan     Plans, contingency plans, and     because planning activities
     OCIO/NITC will             how the OCIO/NITC will           system accreditations.            were informal and
     meet functional            meet future Information                                            undocumented, and
     and control                System requirements.             We interviewed OCIO/NITC          OCIO/NITC has not complied
     requirements.                                               personnel to determine future     with OMB Circular A-130
                                                                 plans for securing OCIO/NITC      requirements. (See Finding 1.)
                                                                 various platforms.
7.   Access to the         a.   Software system specialists      We reviewed system logging        The control structure policies
     operating system,          are prohibited from              policies and procedures.          and procedures were not
     associated                                                                                    suitably designed to achieve the
                                initializing the operating
     software and                                                We reviewed system logs,          control objective as shown
     documentation is           system.                          change management policies        below:
     restricted to         b.   Operational personnel are        and procedures, and recently
     authorized                 prohibited from making           completed INFOMAN records.        No written policies and
     personnel.                 modifications to the                                               procedures exist to outline what
                                operating system and             We reviewed policies and          system logs to review for the
                                                                 procedures for special system     mainframe and what actions to
                                software. OA/LAN is
                                                                 privileges. We reviewed user      take for various security
                                administered per MOU and         IDs with these accesses. We       violations. (See Finding 3.)
                                security staff oversight.        interviewed OCIO/NITC
                           c.   Automated and manual             security staff to determine how   Not all servers in the midrange
                                procedures are used to track     these user IDs are monitored.     were logging system access.
                                all significant mainframe        We determined if forms were       For those servers with logging
                                operating system and             completed for user IDs with       enabled, review of the logs was
                                                                 high-level system privileges.     responsibility of system
                                software modifications, as
                                                                                                   administrators. (See Finding 2.)
                                well as other significant        We attempted to review written
                                changes to other                 access authorizations for         Implementation of its
                                OCIO/NITC infrastructure         persons with system               reengineered change control
                                components.                      administrator duties in the       process has not been
                           d.   System privileges that           midrange environment.             completed. (See Finding 4)
                                bypass normal system
                                controls are allowed only                                          Written access authorizations
                                when necessary and                                                 did not exist for system
                                requested by the appropriate                                       administrators in the midrange
                                supervisor in writing, and are                                     environment. (See Finding 2.)
                                logged and/or closely
                                monitored.                                                         Special access privilege
                                                                                                   policies had been updated but
                                                                                                   not yet implemented because
                                                                                                   not all user IDs with special
                                                                                                   access privileges had approval
                                                                                                   forms on file. (See Finding 3.)




USDA/OIG-A/88501-1-FM                                                                                                            Page 21
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                      Exhibit A – Page 7 of 10
     CONTROL                      CONTROL
     OBJECTIVE                   TECHNIQUES                     TESTS PERFORMED                        CONCLUSION
8.   Provide             a.   Access to resources and data    We reviewed critical data sets     The control structure policies
     reasonable               files is limited by security    to determine if user IDs           and procedures were suitably
     assurance that           software to those required to   accessing these data sets were     designed to achieve the control
     operations staff         do their work.                  being logged.                      objective specified; however,
     operates            b.   On most USDA systems,                                              the controls had not been
     automated                critical and repetitive         Reviewed documentation and         placed into operation.
     equipment in             operations to maintain          INFOMAN records to
     accordance with          systems are automated using     determine if the MAINT             System activities on the
     the management           CA-7 and OPS/MVS.               (maintenance) privileges had       midrange servers were not
     criteria.                                                been utilized in a manner to       always being logged, and when
                                                              effectively limit its user to      logging did occur, system
                                                              predefined, routine system         administrators reviewed the
                                                              management activities.             logs. (See Finding 2.)

                                                              We reviewed system                 Although OCIO/NITC had
                                                              configuration in the midrange      reduced its usage of the
                                                              environment to determine if        MAINT privilege, its usage has
                                                              logging is maintained on the       not been reduced to restrict its
                                                              servers.                           use for only routine system
                                                                                                 management activities. (See
                                                                                                 Finding 3.)
9.   Provide             a.   Access to the operations area   We reviewed and observed           The control structure policies
     reasonable               and office is physically        access to critical resources and   and procedures were suitably
     assurance that           restricted through the use of   the use of guards, key badges,     designed to achieve the control
     equipment is used        a key badge system.             and biometric devices utilized     objective specified, had been
     by authorized       b.   Policies and procedures         to control access to restricted    placed into operation, and were
     persons following        ensure that access to the       areas.                             operating effectively.
     prescribed               Operations area is highly
     procedures.              restricted. This includes       Reviewed documentation that
                              midrange server activities.     NITC recertified individuals
                                                              who require access to sensitive
                                                              areas based on job function.

                                                              Reviewed provisions in
                                                              Directive A-8

                                                              Reviewed physical access to
                                                              consoles to ensure access
                                                              limited to only those
                                                              individuals that require it to
                                                              perform their job.

                                                              Reviewed configuration
                                                              consoles to allow only the
                                                              functions necessary to support
                                                              NITC operations.




USDA/OIG-A/88501-1-FM                                                                                                        Page 22
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                    Exhibit A – Page 8 of 10
  CONTROL                    CONTROL
  OBJECTIVE                 TECHNIQUES                     TESTS PERFORMED                          CONCLUSION
10. USDA: Provide    a.   TSO and batch access to        We reviewed related policies       The control structure policies and
    reasonable            resources and data files is    and procedures and security        procedures were not designed to
    assurance that        controlled through             software access controls over      achieve the control objective
    only approved         management controls and the    inactive user IDs.                 specified.
    users have            use of the security package
    access to             CA-ACF2. This also covers      We reviewed user IDs that have     Unsecured access to the NITC
    OCIO/NITC,            midrange server and            not been used for an extended      mainframe is still being allowed
    and that they         OA/LAN responsibilities.       period of time and password        via the Internet. (See Finding 3.)
    are accessing    b.   OCIO/NITC suspends or          settings to ensure adequate
    and processing        deletes logon IDs that have    controls have been                 For midrange servers and
    only within           been inactive for designated   implemented over user IDs and      firewalls, a policy had not been
    approved              periods of time monthly.       passwords.                         established to ensure only
    boundaries.      c.   CA-ACF2 is used to control                                        authorized users had access, nor
                          user Logon-IDs and             We reviewed related policies       established a policy for review of
                          passwords.                     and procedures and security        user access to the system. (See
                     d.   The OCIO/NITC creates          software access controls over      Finding 2.)
                          only those LIDs requested by   special privilege user IDs.
                          an Agency Security Officer.                                        Agencies were not complying
                     e.   Special privileges must be     We reviewed policies and           with OCIO/NITC’s policies and
                          requested and approved by      procedures, reviewed firewall      procedures to obtain waivers for
                          the appropriate ISSPMs or      rules and tested access controls   using passwords set to never
                          management officials.          over firewalls.                    expire, nor did they follow the
                     f.   Firewalls and intrusion                                           policy for changing passwords.
                          detection control and detect   We reviewed access controls        (See Finding 3.)
                          activity.                      over TSO accounts.
                                                                                            Weaknesses identified in the
                                                         We reviewed policies and           midrange environment (See
                                                         procedures and tested access       Finding 2) include:
                                                         controls over routers.             •    Password security settings
                                                                                                 and access permissions did
                                                         We tested user rights to ensure         not always meet
                                                         users were able to access only          departmental and NIST
                                                         areas associated with their             guidelines;
                                                         assigned responsibilities.         •    User accounts comprised of
                                                                                                 generic accounts, guest
                                                         We reviewed system                      accounts, and other accounts
                                                         configurations to ensure                unidentifiable to employee
                                                         settings did not allow excessive        lists;
                                                         user privileges.                   •    Administrator accounts and
                                                                                                 user rights did not always
                                                                                                 meet departmental and NIST
                                                                                                 guidelines; and,
                                                                                            •    Excessive access rights were
                                                                                                 granted to directories and
                                                                                                 files.




USDA/OIG-A/88501-1-FM                                                                                                       Page 23
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                     Exhibit A – Page 9 of 10
  CONTROL                      CONTROL
  OBJECTIVE                   TECHNIQUES                      TESTS PERFORMED                        CONCLUSION
11. Data files are     a.   Agency Security Officers are    We performed testing in          The control structure policies and
    adequately              responsible for identifying     NITC’s midrange environment      procedures were suitably
    protected from          critical user files. Users      over system ownership.           designed to achieve the control
    unauthorized            back up their applications                                       objective specified, however,
    modification or         and data on the schedule        We interviewed NITC system       OCIO/NITC recognized the need
    destruction.            they deem appropriateOn         administrators regarding back-   to create contingency plans for
                            midrange server                 up procedures taken.             OCIO/NITC-owned general
                            environments, NITC system                                        support systems, and
                            administrators rotate           We requested the most current    telecommunications. (See
                            customer backup tapes off       Contingency/ Disaster Recover    Finding 1.)
                            site at customer request and    Plans for OCIO/NITC
                            use the mainframe as a          Infrastructure Support,
                            supplemental backup media       Mainframe and General
                            through IBM’s Tivoli            Support Systems.
                            Storage Manager.
                       b.   Procedures are documented
                            in the NITC Disaster
                            Recovery Plans.
12. Assess the         a.   Risk assessments are            We obtained and reviewed risk    The control structure policies and
    vulnerability of        performed on OCIO/NITC          assessments performed on         procedures were suitably
    the                     systems.                        OCIO/NITC systems.               designed to achieve the control
    OCIO/NITC to       b.   A Contingency Plan for                                           objective specified, however,
    physical and            Alternate Site Operations is    We reviewed desk exercises       OCIO/NITC had not conducted a
    other disasters,        in place. A plan for            conducted relating to disaster   Business Impact Analysis (BIA)
    and put in place        midrange server                 recovery.                        before completing their risk
    procedures for          environments has not been                                        assessments. The BIA purpose is
    maintaining             documented. It will be in the   We requested OCIO/NITC           to correlate specific system
    essential               next issuance of the            Contingency Plans.               components with the critical
    operations after        contingency plan.                                                services that they provide, and
    such an            c.   The USDA Internet Access        We determined if                 based on that information,
    occurrence.             network provides the            communication software           characterize the consequences of
                            physical medium for the         logical controls have been       a disruption to the system.
                            OCIO/NITC wide area             implemented.                     Without the BIA first,
                            network.                                                         OCIO/NITC cannot be assured
                                                                                             that all system components and
                                                                                             critical services were adequately
                                                                                             identified, prioritized, and
                                                                                             included in the risk assessment.
                                                                                             (See Finding 1.)

                                                                                             Unencrypted access from the
                                                                                             Internet is still available, even
                                                                                             though OCIO/NITC planned to
                                                                                             have this corrected by
                                                                                             01/01/2004. (See Finding 3.)




USDA/OIG-A/88501-1-FM                                                                                                        Page 24
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                    Exhibit A – Page 10 of 10
  CONTROL                     CONTROL
  OBJECTIVE                  TECHNIQUES                      TESTS PERFORMED                         CONCLUSION
13. Evaluate and      a.   Vulnerabilities are assessed    We determined if OCIO/NITC         The control structure policies and
    substantiate IT        on a regular basis through      periodically identifies            procedures were not suitably
    controls on a          risk assessments,               significant threats to the well-   designed to achieve the control
    regular basis.         vulnerability assessments,      being of sensitive and critical    objective specified.
                           and security testing.           resources and identifies related
                      b.   Develop and periodically test   risks.                             No procedures exist to allow for
                           a plan that will allow                                             security staff oversight of the
                           OCIO/NITC to recover            We interviewed OCIO/NITC           midrange environment. (See
                           operating systems and           officials to determine if all      Finding 2)
                           software at the Alternate       network devices were
                           Operations Site within 72       periodically scanned.              OCIO/NITC had not documented
                           hours after disaster                                               justification of their firewall
                           declaration. A disaster         We obtained and reviewed scan      configuration. (See Finding 2.)
                           recovery plan has been          reports of selected systems.
                           developed and tested to                                            Network devices were not
                           restore the Tivoli Storage      We interviewed OCIO/NITC           scanned for the first 9 months of
                           Manager Server, which is a      security staff to determine the    FY 2004. (See Finding 2.)
                           component of the midrange       oversight of the security staff
                           disaster recovery strategy.     on the midrange environment.       OCIO/NITC recognized the need
                           An AIX recovery strategy                                           to create contingency plans for
                           has been developed and          We requested OCIO/NITC             OCIO/NITC-owned general
                           tested.                         Contingency Plans.                 support systems, and
                                                                                              telecommunications. (See
                                                           We reviewed firewall rules to      Finding 1.)
                                                           ensure NIST and OCIO
                                                           guidelines were being
                                                           followed.
14. Provide an        a.   Ensure terminated               We tested access controls over     The control structure policies and
    appropriate            employees are disallowed        selected midrange servers to       procedures were not suitably
    level of               access to the NITC and          determine if terminated            designed to achieve the control
    personnel              NITC resources.                 employees were disallowed          objective specified. OCIO/NITC
    security and                                           access to NITC resources.          did not have procedures in place
    security                                                                                  to reconcile user IDs to employee
    awareness.                                                                                lists.

                                                                                              We identified that OCIO/NITC
                                                                                              has weak controls over timely
                                                                                              removal of unneeded user
                                                                                              accounts.




USDA/OIG-A/88501-1-FM                                                                                                        Page 25
